U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Leefatinie Tirosh Cole v. United States of America, No. 20-7427

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 1,
2021, and placed on the docket on March 11, 2021. The government’s response is now due,
after one extension, on June 1, 2021
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including July 1, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7427
COLE, LEEFATINIE TIROSH
USA

COURTNEY O'DONNELL
FEDERAL DEFENDER PROGRAM, INC.
101 MARIETTA STREET, N,W,
STE. 1500
ATLANTA, GA 30303
404-688-7530

